                                      FINANCIAL STATEMENT
                                      AUDIT OF THE FEDERAL
                                        LABOR RELATIONS
                                           AUTHORITY
Office of Inspector General
        Financial Statement Audit




                                           Fiscal Year 2012
                                       Report No. AR-13-01
                                            November 2012




                                                        Federal Labor Relations Authority
                                    1400 K Street, N.W. Suite 250, Washington, D.C. 20424
            TABLE OF CONTENTS



INDEPENDENT AUDITOR’S REPORT

FINANCIAL SECTION
FINANCIAL SECTION
                               Federal Labor Relations Authority
                                      BALANCE SHEET
                                          (in dollars)
                             As of September 30, 2012 and 2011

                                                                    2012           2011
Assets:
  Intragovernmental:
    Fund balance with the Treasury (Note 2)                        $4,525,133     $6,532,013
    Accounts receivable (Note 3)                                        1,335         17,021
    Advances and prepayments                                           21,414         11,212
  Total intragovernmental                                           4,547,882      6,560,246
  Accounts receivable from the public, net (Note 3)                    12,172          5,243
  General property and equipment, net (Note 4)                        353,163        525,753

Total Assets                                                       $4,913,217     $7,091,242

Liabilities:
  Intragovernmental:
    Accounts payable                                                  $40,857        $21,764
    Unfunded FECA liability (Note 5)                                  240,761        239,011
    Custodial liability                                                    38             76
  Total intragovernmental                                             281,656        260,851
  Accounts payable                                                    184,639        210,917
  FECA actuarial liability (Note 5)                                 1,185,256      1,141,306
  Unfunded leave (Note 5)                                           1,519,345      1,513,590
  Accrued payroll and benefits                                      1,207,777      1,280,740
  Other (Note 6)                                                            2              4

Total Liabilities                                                  $4,378,675     $4,407,408

Net Position:
  Unexpended appropriations – other funds                          $3,117,955     $5,016,802
  Cumulative results of operations – other funds                    (2,583,413)    (2,332,968)

Total Net Position                                                  $534,542      $2,683,834

Total Liabilities and Net Position                                 $4,913,217     $7,091,242

The accompanying notes are an integral part of these statements.
                               Federal Labor Relations Authority
                                 STATEMENT OF NET COST
                                          (in dollars)
                     For the Years Ended September 30, 2012 and 2011

                                                                     2012            2011
Gross Program Costs:
 Authority:
   Intragovernmental costs                                          $4,037,251      $3,869,249
   Public costs                                                     10,735,958      11,498,999
      Total costs                                                   14,773,209      15,368,248
   Intragovernmental earned revenue                                      (1,223)         (5,580)
   Public earned revenue                                                 (3,144)         (4,398)
      Less: Total earned revenue                                         (4,367)         (9,978)

    Net Program Costs                                              $14,768,842     $15,358,270

  Office of the General Counsel:
   Intragovernmental costs                                                   $0             $60
   Public costs                                                     10,816,099      10,809,060
      Total costs                                                   10,816,099      10,809,120
   Intragovernmental earned revenue                                     (24,924)        (52,461)
   Public earned revenue                                                 (9,218)        (13,924)
      Less: Total earned revenue                                        (34,142)        (66,385)

    Net Program Costs                                              $10,781,957     $10,742,735

  Federal Service Impasses Panel:
   Intragovernmental costs                                                   $0              $0
   Public costs                                                        791,422         689,940
      Total costs                                                      791,422         689,940
   Intragovernmental earned revenue                                        (643)         (1,527)
   Public earned revenue                                                   (548)           (797)
      Less: Total earned revenue                                         (1,191)         (2,324)

    Net Program Costs                                                $790,231        $687,616

  Net Cost of Operations                                           $26,341,030     $26,788,621

The accompanying notes are an integral part of these statements.
                           Federal Labor Relations Authority
                      STATEMENT OF CHANGES IN NET POSITION
                                      (in dollars)
                     For the Years Ended September 30, 2012 and 2011

                                                                     2012            2011
Cumulative Results of Operations:
 Beginning balance                                                 $(2,332,968)    $(2,138,396)

  Budgetary financing sources:
    Appropriations used                                            24,594,738      24,931,853
    Non-exchange revenue                                                    (2)             (4)
  Other financing sources (non-exchange):
    Transfers in/out without reimbursement                                   0          (24,675)
    Imputed financing                                                1,495,849       1,686,875
  Total financing sources                                           26,090,585      26,594,049
  Net cost of operations                                           (26,341,030)    (26,788,621)
  Net change                                                          (250,445)       (194,572)

Cumulative Results of Operations                                   $(2,583,413)    $(2,332,968)

Unexpended Appropriations:
 Beginning balance                                                 $5,016,802      $6,901,675

  Budgetary financing sources:
    Appropriations received                                         24,723,000      24,773,000
    Other adjustments                                                (2,027,109)     (1,726,020)
    Appropriations used                                            (24,594,738)    (24,931,853)
  Total budgetary financing sources                                  (1,898,847)     (1,884,873)

Total Unexpended Appropriations                                    $3,117,955      $5,016,802

Net Position                                                         $534,542      $2,683,834

The accompanying notes are an integral part of these statements.
                                 Federal Labor Relations Authority
                            STATEMENT OF BUDGETARY RESOURCES
                                            (in dollars)
                         For the Years Ended September 30, 2012 and 2011

                                                                          2012           2011
Budgetary Resources:
  Unobligated balance, brought forward, October 1                         $3,253,030     $4,876,678
  Recoveries of prior year unpaid obligations                                611,555         46,400
  Other changes in unobligated balance                                    (2,027,109)    (1,726,020)
  Unobligated balance from prior year budget authority, net                1,837,476      3,197,058
  Appropriation                                                           24,723,000     24,773,000
  Spending authority from offsetting collections                              46,053         79,330
Total Budgetary Resources                                                $26,606,529    $28,049,388

Status of Budgetary Resources:
   Obligations incurred (Note 10)                                        $24,759,055    $24,796,358
  Unobligated balance, end of year:
      Apportioned                                                             63,518         53,918
      Unapportioned                                                        1,783,956      3,199,112
   Total obligated balance, end of year                                    1,847,474      3,253,030
Total Budgetary Resources                                                $26,606,529    $28,049,388

Change in Obligated Balance:
  Unpaid obligations, brought forward, October 1                          $3,285,463     $3,514,395
  Uncollected customer payments from Federal sources, brought forward,
   October 1                                                                  (6,559)        (8,466)
  Obligated balance, start of year (net)                                   3,278,904      3,505,929
  Obligations incurred                                                    24,759,055     24,796,358
  Outlays (gross)                                                        (24,740,405)   (24,978,891)
  Change in uncollected customer payments from Federal sources                (8,378)         1,908
  Recoveries of prior year unpaid obligations                               (611,555)       (46,400)
  Obligated balance, end of year:
     Unpaid obligations, end of year (gross)                               2,692,558      3,285,463
     Uncollected customer payments from Federal sources, end of year         (14,937)        (6,559)
Obligated Balance, End of Year (Net)                                      $2,677,621     $3,278,904

Budget Authority and Outlays, Net:
  Budget authority, gross                                                $24,769,053    $24,852,330
  Actual offsetting collections                                              (37,675)       (81,238)
  Change in uncollected customer payments from Federal sources                (8,378)         1,908
Budget Authority, Net                                                    $24,723,000    $24,773,000

  Outlays, gross                                                         $24,740,405    $24,978,891
  Actual offsetting collections                                              (37,675)       (81,238)
  Outlays, net                                                            24,702,730     24,897,653
Agency Outlays, Net                                                      $24,702,730    $24,897,653


The accompanying notes are an integral part of these statements.
NOTES TO THE FINANCIAL STATEMENTS

Note 1: Significant Accounting Policies
(a) Reporting Entity – The FLRA is an independent administrative Federal agency created by
    Title VII of the Civil Service Reform Act of 1978, with a mission to carry out five statutory
    responsibilities: (1) determining the appropriateness of units for labor organization
    representation; (2) resolving complaints of unfair labor practices; (3) adjudicating exceptions
    to arbitrators’ awards; (4) adjudicating legal issues relating to duty to bargain; and (5)
    resolving impasses during negotiations. The agency consists of three components: the
    Authority, the Office of the General Counsel, and the Federal Service Impasses Panel.

(b) Basis of Accounting and Presentation – The financial statements have been prepared to
    report the financial position, net cost of operations, changes in net position, and budgetary
    resources of the FLRA in accordance with the Chief Financial Officers Act of 1990, the
    Government Management Reform Act of 1994, and the Accountability of Tax Dollars Act of
    2002. The statements have been prepared from agency financial records in accordance with
    U.S. Generally Accepted Accounting Principles (GAAP), in accordance with guidance issued
    by the Federal Accounting Standards Advisory Board (FASAB) and the Office of
    Management and Budget (OMB), as prescribed in OMB Circular A-136, Financial
    Reporting Requirements, and pursuant to the requirements of 31 U.S.C. 3515(b). These
    financial statements include all funds and accounts under the control of the FLRA.

   The accounting structure of Federal agencies is designed to reflect both accrual and
   budgetary accounting transactions. Under the accrual method of accounting, revenues are
   recognized when earned and expenses are recognized when incurred, without regard to the
   receipt or payment of cash. The budgetary accounting principles, on the other hand, are
   designed to recognize the obligation of funds according to legal requirements, which in many
   cases occurs before an accrual-based transaction takes place. The recognition of budgetary
   accounting transactions is essential for compliance with legal constraints and controls over
   the use of Federal funds. The accompanying financial statements are prepared on the accrual
   basis of accounting.

(c) Budget Authority – The Congress passes appropriations annually that provide the FLRA
    with authority to obligate funds for necessary salaries and expenses to carry out mandated
    program activities. These funds are available until expended, subject to OMB apportionment
    and to Congressional restrictions on the expenditure of funds. Also, the FLRA places
    internal restrictions on fund expenditures to ensure the efficient and proper use of all funds.

(d) Fund Balance with the Treasury – FLRA receipts and disbursements are processed by the
    Department of the Treasury. Fund balances with the Treasury consist of appropriated funds
    that are available to pay current liabilities and to finance authorized purchase commitments.
    No cash is held in commercial bank accounts.

(e) Accounts Receivable – Accounts receivable consists of amounts due from other Federal
    entities and from current and former employees and vendors. Amounts due from the public
   are stated net of an allowance for uncollectible accounts that is based on an analysis of
   outstanding receivables balances and past collection experience. No allowance is established
   for intragovernmental receivables, as they are considered fully collectible from other Federal
   agencies.

(f) General Property and Equipment (P&E) – This category consists of equipment and internal
    use software. The basis for recording purchased P&E is full cost, including all costs incurred
    to bring FLRA P&E to and from a location suitable for its intended use. P&E is depreciated
    using the straight-line method over the estimated useful life of the asset. Statement of
    Federal Financial Accounting Standards (SFFAS) No. 10, Accounting for Internal Use
    Software, provides accounting standards for internal use software used by each agency. The
    standards provide for capitalized property to continue to be reported on the Balance Sheet.
    P&E that are not capitalized because they are under the capitalization threshold are expensed
    in the year of acquisition.

   The FLRA’s capitalization threshold for individual purchases is $25,000. Bulk purchases of
   similar items that individually are worth less than $25,000, but collectively are worth more
   than $100,000 are also capitalized using the same general P&E categories and useful lives as
   capital acquisitions. Major building alterations and renovations are capitalized, while
   maintenance and repair costs are charged to expense as incurred.

                            General P&E Category               Service Life
                      Software                                3 years
                      Computer equipment                      5 years
                      Office equipment                        7 years
                      Office furniture                        15 years
                      Leasehold improvements                  Life of lease

(g) Liabilities – Liabilities represent the amount of monies or other resources likely to be paid by
    FLRA as a result of transactions or events that have already occurred. No liability can be
    paid, however, absent an appropriation. Liabilities for which an appropriation has not been
    enacted are, therefore, classified as not covered by budgetary resources, and there is no
    certainty that the appropriation will be enacted. Also, the Federal government, acting in its
    sovereign capacity, can abrogate liabilities other than contracts. Liabilities that are covered
    by budgetary resources consist of intragovernmental and public accounts payable and
    accrued funded payroll. Liabilities not covered by budgetary resources in FY 2011 and FY
    2012 consist of accrued and actuarial Federal Employees Compensation Act (FECA)
    compensation and unfunded employee leave.

(h) FECA Liabilities – An accrued FECA liability is recorded for actual and estimated future
    payments to be made for workers’ compensation pursuant to the FECA. The actual costs
    incurred are reflected as a liability because agencies will reimburse the Department of Labor
    (DOL) two years after the actual payment of expenses. Future revenues will be used for their
    reimbursement to the DOL. The liability consists of: (1) the net present value of estimated
   future payments calculated by the DOL; and (2) the un-reimbursed cost paid by the DOL for
   compensation to recipients under the FECA.

   An estimated actuarial liability for future workers’ compensation benefits is included. The
   liability estimate is based on the DOL’s FECA actuarial model that takes the amount of
   benefit payments over the last twelve quarters and calculates the annual average of payments
   for medical expenses and compensation. This average is then multiplied by the liabilities-to-
   benefits paid ratios for the whole FECA program for FY 2012. The ratios may vary from
   year to year as a result of economic assumptions and other factors, but the model calculates a
   liability approximately eleven times the annual payments.

(i) Annual, Sick and Other Leave – Amounts associated with the payment of annual leave are
    accrued while leave is being earned by employees, and this accrual is reduced as leave is
    taken. Each year the balance in the accrued annual leave account is adjusted to reflect
    current pay rates. To the extent that current or prior year appropriations are not available to
    finance annual leave, future financing sources will be used. Sick leave and other types of
    non-vested leave are expensed as taken. Any liability for sick leave that is accrued but not
    taken by a Civil Service Retirement System (CSRS)-covered employee is transferred to the
    Office of Personnel Management (OPM) upon the retirement of that individual. No credit is
    given for sick leave balances upon the retirement of Federal Employees Retirement System
    (FERS)-covered employees.

(j) Accounts Payable and Other Accrued Liabilities – Accounts payable and accrued liabilities
    represent a probable future outflow or other sacrifices of resources as a result of past
    transactions or events. Liabilities are recognized when they are incurred, regardless of
    whether they are covered by available budgetary resources. FLRA liabilities cannot be
    liquidated without legislation that provides resources to do so. Certain reclassifications of
    prior-year accounts payable balances have been made in the financial statements to make
    disclosures consistent with those of the current year.

(k) Net Position – The components of net position are unexpended appropriations and
    cumulative results of operations. Unexpended appropriations include undelivered orders and
    unobligated balances. Undelivered orders reflect the amount of goods and services ordered
    that have yet to be actively or constructively received. Unobligated balances are the amount
    of appropriations or other authority remaining after deducting the cumulative obligations
    from the amount available for obligation. The cumulative results of operations represent the
    net results of operations since inception, the cumulative amount of prior-period adjustments,
    the remaining book value of capitalized assets, and future funding requirements.

(l) Retirement Plans – The FLRA’s employees participate in the CSRS or the FERS. For CSRS
    employees, hired prior to January 1, 1984, the FLRA withholds seven percent of each
    employee’s salary and contributes seven percent of the employee’s basic salary to the CSRS
    Retirement and Disability Fund. These employees may also contribute, on a tax-deferred
    basis, to a defined contribution plan – the Thrift Savings Plan (TSP). In 2011, the regular
    Internal Revenue Service limit was $16,500; the limit was increased to $17,000 in FY 2012.
   The FLRA is not required to and does not contribute any matching amounts for CSRS
   employees.

   The FERS was established by enactment of Public Law 99-335. Pursuant to this law, the
   FERS and Social Security automatically cover most employees hired after December 31,
   1983. Employees hired before January 1, 1984 elected either to join the FERS and Social
   Security or to remain in the CSRS. For FERS employees, the FLRA withholds 6.2 percent in
   old age survivors and disability insurance up to a specified wage ceiling and 0.8 percent of an
   employee’s gross earnings for retirement. In FY 2012, the FLRA matched the retirement
   withholdings with a contribution equal to 11.9 percent of the employee’s taxable salary.

   All employees are eligible to contribute to the TSP. For employees under the FERS, a TSP
   account is automatically established. The FLRA is required to make a mandatory
   contribution of one percent of the base salary for each employee under the FERS. The
   agency is required to match the employee’s contribution up to a maximum of five percent of
   his or her salary. Matching contributions are not made to the TSP accounts established by
   CSRS employees. The FLRA does not report on its financial statements information
   pertaining to the retirement plans covering its employees. Reporting amounts such as plan
   assets, accumulated plan benefits, and related unfunded liabilities, if any, is the responsibility
   of the OPM.

   FERS employees and certain CSRS reinstatement employees are eligible to participate in the
   Social Security program after retirement. CSRS employees who are 65 or older are eligible
   for Social Security payments (even if they have not retired). In these instances, the FLRA
   remits the employer’s share of the required contribution.

(m) Imputed Financing from Costs Absorbed by Others – The FASAB’s SFFAS No. 5,
    Accounting for Liabilities of the Federal Government, requires that employer agencies
    recognize the full cost of pension, health, and life insurance benefits during their employees’
    active years of service. The OPM, as administrator of the CSRS and FERS plans, the
    Federal Employees Health Benefits Program, and the Federal Employees Group Life
    Insurance Program, must provide the “cost factors” that adjust the agency contribution rate
    to the full cost for the applicable benefit programs. An imputed financing source and
    corresponding imputed personnel cost is reflected in the Statement of Changes in Net
    Position and the Statement of Net Cost, respectively.

(n) Revenue and Other Financing Sources – The FLRA’s revenues are derived from
    reimbursable agreements (exchange) and a direct, annual appropriation (financing source).
    The FLRA recognizes reimbursable work agreement revenue when earned, i.e., goods have
    been delivered or services that have been rendered. Each reimbursable work agreement
    specifies the dollar value of the agreement and is based on estimated resources needed to
    perform the specified services, whether it is personnel services, including base pay,
    overtime and benefits, or travel and per diem.

    The agency receives an annual Salaries and Expenses appropriation from the Congress.
    Annual appropriations are used, within statutory limits, for salaries and administrative
    expenses and for operating and capital expenditures for essential personal property.
    Appropriations are recognized as non-exchange revenues at the time the related program or
    administrative expenses are incurred. Appropriations expended for capitalized property and
    equipment are recognized as expenses when an asset is consumed in operations. The
    FLRA’s annual appropriation for FY 2011 was $24,773,000, which was reduced by $49,546
    pursuant to a 0.2 percent across-the-board rescission included in Public Law 112-10. The
    agency’s annual appropriation for FY 2012 was $24,723,000.

(o) Expired Accounts and Cancelled Authority – Unless otherwise specified by law, annual
    authority expires for incurring new obligations at the beginning of the subsequent fiscal
    year. The account into which the annual authority is placed is called the expired account.
    For five fiscal years, the expired account is available for expenditure to liquidate valid
    obligations incurred during the unexpired period. Adjustments are allowed to increase or
    decrease valid obligations incurred during the unexpired period but not previously reported.
    At the end of the fifth expired year, the expired account is cancelled and any remaining
    money is returned to the Treasury.

(p) Transactions with Related Parties – In the course of its operations, the FLRA has
    relationships and conducts financial transactions with numerous Federal agencies. The most
    prominent of these relationships are with the Treasury, the DOL, the Department of the
    Interior, the Department of Transportation, the Department of Homeland Security, and the
    General Services Administration.

(q) Contingencies – A contingency is an existing condition, situation, or set of circumstances
    involving uncertainty as to possible gain or loss to the agency. The uncertainty will
    ultimately be resolved when one or more future events occur or fail to occur. With the
    exception of pending, threatened, or potential litigation, a contingent liability is recognized
    when a past transaction or event has occurred, a future outflow or other sacrifice of
    resources is more likely than not, and the related future outflow or sacrifice of resources is
    measurable. For pending, threatened, or potential litigation, a liability is recognized when a
    past transaction or event has occurred, a future outflow or other sacrifice of resources is
    likely, and the related future outflow or sacrifice of resources is measurable.

(r) Use of Estimates – The preparation of financial statements in conformity with GAAP
    requires management to make estimates and assumptions that affect the reported amounts of
    assets and liabilities and disclosure of contingent liabilities as of the date of the financial
    statements, as well as the reported amounts of revenues and expenses during the reporting
    period. Actual results could differ from those estimates.

(s) Advances and Prepayments – Advance payments are generally prohibited by law. There
    are some exceptions, such as reimbursable agreements, subscriptions, and payments to
    contractors and employees. Payments made in advance of the receipt of goods and services
    are recorded as advances or prepayments at the time of the prepayments and recognized as
    expenses when the related goods and services are received.
Note 2: Fund Balance with the Treasury
U.S. government cash is accounted for on an overall consolidated basis by the Treasury. The
amounts shown on the Balance Sheet represent the FLRA’s right to draw on the Treasury for
valid expenditures. The fund balance as shown on the FLRA records is reconciled monthly with
records from the Treasury.

                               Fund Balance with the Treasury
                    As of September 30,           2012              2011
                    General funds                $4,525,095       $6,531,934
                    Other fund types                      38                79
                    Total                        $4,525,133       $6,532,013

                         Status of Fund Balance with the Treasury
         As of September 30,                                    2012               2011
         Unobligated balance available                          $63,518            $53,918
         Unobligated balance unavailable                       1,783,956          3,199,112
         Obligated balance not yet distributed                 2,677,621          3,278,904
         Non-budgetary fund balance with the Treasury                  38                 79
         Total                                              $4,525,133           $6,532,013

Note 3: Accounts Receivable, Net
The reported amount for accounts receivable consists of amounts owed to the FLRA by other
Federal agencies (intragovernmental) and the public.

                                  Accounts Receivable, Net
                 As of September 30,                 2012              2011
                 From Federal agencies, net              $1,335         $17,021
                 From the public, net                    12,172             5,243
                 Total                                $13,507           $22,264
                          Amounts Due from Other Federal Agencies
        As of September 30,                                         2012              2011
        Department of Defense                                               $0          $1,123
        Department of Homeland Security                                1,335                   0
        Department of Justice                                                0               407
        Environmental Protection Agency                                      0              1,096
        United States Postal Service                                         0          14,395
        Total                                                         $1,335           $17,021

Note 4: General Property and Equipment, Net

                                                                             2012 Net         2011 Net
                               Service      Acquisition Accumulated            Book             Book
       Category                  Life         Value     Depreciation          Value            Value
Software                     3 years          $258,957    $(258,957)               $0                $0
Computer equipment           5 years            497,616         (429,063)          68,553           98,799
Office equipment             7 years            541,272         (421,974)         119,298      172,652
Office furniture             15 years           526,039         (399,927)         126,112      147,906
Leasehold improvements Life of lease            428,173         (388,973)          39,200      106,396
Total                                        $2,252,057      $(1,898,894)        $353,163     $525,753

Note 5: Liabilities Not Covered By Budgetary Resources
Unfunded FECA liabilities consists of workers’ compensation claims payable to the DOL, which
will be funded in a future period, and an unfunded estimated liability for future workers’
compensation claims based on data provided from the DOL. The actuarial calculation is based
on benefit payments made over twelve quarters, and calculates the annual average of payments.
For medical expenses and compensation, this average is then multiplied by the liability-to-
benefit paid ratio for the whole FECA program.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. At
year-end, the balance in the unfunded leave account is adjusted to reflect the liability at current
pay rates and leave balances. Unfunded leave is paid from future funding sources and,
accordingly, is reflected as a liability not covered by budgetary resources. Sick and other leave
is expensed as taken. All other liabilities are considered to be covered by budgetary resources.
                       Liabilities Not Covered By Budgetary Resources
     For the Years ended September 30,                              2012             2011
     Intragovernmental – Unfunded FECA liabilities                  $240,761         $239,011
     Federal employee benefits – FECA actuarial liability           1,185,256      1,141,306
     Unfunded leave                                                 1,519,345      1,513,590
     Total                                                         $2,945,362     $2,893,907

Note 6: Other Liabilities
Other liabilities in FY 2011 and FY 2012 include interest payment from a customer agency for
reimbursable travel. Payment was deposited into the Treasury’s General Fund Interest Account.

Note 7: Leases
The FLRA has operating leases for rental of office space and equipment. As a Federal agency,
the FLRA is not liable for any lease terms beyond one year.

                               Future Minimum Lease Payments
                      FY          Equipment          Building            Total
               2013                    $40,194        $1,393,343        $1,433,537
               2014                      18,700          501,481           520,181
               2015                      13,527          422,743           436,270
               2016                           0          316,202           316,202
               2017                           0          251,398           251,398
               Thereafter                     0        1,023,983         1,023,983
               Total                   $72,421        $3,909,150        $3,981,571

Note 8: Commitments and Contingencies
The FLRA is a party in various administrative proceedings, legal actions, and claims brought by
or against the agency. In the opinion of FLRA management, the ultimate resolution of
proceedings, actions, and claims will not materially affect financial position or results of
operations of the FLRA. The agency has examined its obligations related to cancelled FY 2007
authority and believes that it will not have outstanding commitments that will require future
resources.

Note 9: Intragovernmental Costs and Exchange Revenue
The classification of revenue or cost defined as "intragovernmental" or "with the public" is
defined on a transaction by transaction basis. Preceding transactions in the lifecycle of a product
will not have an impact on subsequent transactions. If the FLRA purchases goods or services
from another Federal entity, capitalizes them into inventory, and later resells them to the public,
the cost of the original purchase of resale assets from the other Federal entity will be classified as
"intragovernmental" at the time of the purchase. At ultimate sale to the end user, the resulting
cost of goods will be classified as "with the public." The purpose of this classification is to
enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.

Note 10: Apportionment Categories of Obligations Incurred: Direct Versus
Reimbursable Obligations

                                       Obligations Incurred
          For the Years Ended September 30,                    2012              2011
          Direct obligations – Category A                   $24,713,002       $24,717,028
          Reimbursable obligations – Category A                   46,053            79,330
          Total                                             $24,759,055       $24,796,358

Note 11: Undelivered Orders at the End of the Period
The amount of budgetary resources obligated for undelivered orders at the end of September 30,
2012 and 2011 was $1,259,285 and $1,772,040, respectively.

Note 12: Explanation of Differences between the SBR and the Budget of the
U.S. Government
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting, calls for explanation of material differences
between amounts reported in the Statement of Budgetary Resources and the actual balances
published in the Budget of the U.S. Government (the President’s Budget). The FY 2013
President’s Budget, with actual amounts for FY 2011, has been reconciled to the Statement of
Budgetary Resources. The FY 2014 President’s Budget, with actual amounts for FY 2012, will
not be published until February 2013.

Note 13: Reconciliation of Net Cost of Operations to Budget
Details of the relationship between budgetary resources obligated and the net costs of operations
for the fiscal years ended September 30, 2012 and 2011 are shown in the table on the following
page.
                   Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30,                                2012         2011

Resources Used to Finance Activities:
 Obligations incurred                                        $24,759,055 $24,796,358
 Spending authority from offsetting collections:
   Collected                                                     (37,675)      (81,238)
   Change in unfilled customer orders                             (5,821)         (647)
 Recoveries of prior year unpaid obligations                    (611,555)      (46,400)
 Transfers in/out without reimbursement                                0       (24,675)
 Imputed financing sources                                     1,495,849     1,686,875
 Other                                                                 0            (4)

Total Resources Used to Finance Activity                     $25,599,853 $26,330,269

Resources Used That Do Not Fund Net Cost of Operations:
 Change in unfilled customer orders                               $5,821          $647
 Change in undelivered orders                                    502,552       241,745
 Current-year capitalized purchases                                    0       (29,789)
Components of the Net Cost of Operations Which Do Not
Generate or Use Resources in the Reporting Period:
 Change in non-Federal receivables                                  8,757        (9,992)
 Other financing sources not in the budget                     (1,495,849)   (1,686,875)
 Depreciation and amortization                                    172,591       220,707
 Future funded expenses                                             7,505        66,632
 Imputed costs                                                  1,495,849     1,686,875
 Other expenses not requiring budgetary resources                  43,950       (31,598)

Net Cost of Operations                                       $26,341,029 $26,788,621
 CONTACTING THE OFFICE OF
   INSPECTOR GENERAL


                                                                        Office of Inspector General
IF YOU BELIEVE AN ACTIVITY IS WASTEFUL,
FRAUDULENT, OR ABUSIVE OF FEDERAL FUNDS,




                                                                                Financial Statement Audit
CONTACT THE:




      HOTLINE (800)331-3572
       HTTP://WWW.FLRA.GOV/OIG-HOTLINE




EMAIL: OIGMAIL@FLRA.GOV
CALL: (202)218-7970 FAX: (202)343-1072
WRITE TO: 1400 K Street, N.W. Suite 250,         Washington,
D.C. 20424




The complainant may remain confidential; allow their name to be
used; or anonymous. If the complainant chooses to remain
anonymous, FLRA OIG cannot obtain additional information on the
allegation, and also cannot inform the complainant as to what
action FLRA OIG has taken on the complaint. Confidential status
allows further communication between FLRA OIG and the
complainant after the original complaint is received. The identity of
complainants is protected under the provisions of the Whistleblower
Protection Act of 1989 and the Inspector General Act of 1978. To
learn more about the FLRA OIG, visit our Website at
http://www.flra.gov/oig
